 05/31/07         THU 18:20 FAX 865 241 3897               OIG                           ---   HQ               00



DOE F 1325.8
(08&93)
United States Government                                                                 Department of Energy


memorandum
          DATE:     May 31, 2007                                      Audit Report Number: OAS-L-07-13

     REPLY TO
     ATTN OF:       IG-32 (A07RL048)

     SUBJECT:       Audit of Safety Allegations Related to the Waste Treatment Plant at the Hanford Site
            TO:     Manager, Office of River Protection

                    INTRODUCTION AND OBJECTIVE

                    The Department of Energy's (Department) Hanford Site is responsible for treating and
                    preparing 53 million gallons of radioactive and chemically hazardous waste for
                    disposal. Bechtel National, Inc. (Bechtel) is designing, building and commissioning
                    the Waste Treatment Plant (Plant), a category II nuclear facility, which is comprised of
                    a complex of treatment facilities to vitrify and immobilize radioactive waste into a
                    sturdy and stable form of glass to isolate the radioactive waste from the environment.

                    In March 2006, the Office of Inspector General received allegations that certain pieces
                    of equipment for the integrated control network were procured for the Plant even
                    though they were not approved or did not have proper documentation or fail-safe
                    features. The six specific allegations were that:

                        * Network equipment to distribute communication signals and power that was
                          tested and procured for the Plant had not been approved by Bechtel;
                        * Prototype valve equipment that was purchased for the Plant lacked proper
                          documentation and had a non-functional failsafe feature;
                        * The subcontractor selected to provide the primary control system was a
                          substandard supplier;
                        * The primary control system did not function properly due to a significant
                          number of computer lock-ups during testing;
                        * A different subcontractor could result in substantial cost savings for
                          acquisition of the control system; and,
                        * The control system was not acceptable for use in a nuclear facility.

                    The objective of our audit was to determine if the allegations were accurate.

                    CONCLUSIONS AND OBSERVATIONS
                    We could not substantiate five of the six allegations. In fact, we found that:

                        *   Bechtel had approved the network equipment that was tested and procured for
                            the Plant;
                        *   Valve equipment procured for the Plant had proper documentation and
                            functional fail-safe features;
05/31/07   THUI 18:21 FAX 865 241 3897             0IG                           4-4   HQ               Qi002




                 * The primary control system subcontractor was highly rated within the industry
                   for process instrumentation and controls;
                 * Causes for computer lock-ups during testing were identified and corrected;
                   and,
                 a There was no evidence that a different subcontractor could result in substantial
                    cost savings.

             However, we did find that the control system supplier was not required to meet the
             more stringent quality assurance standards required for nuclear facilities, or their
             equivalent. We reported on this issue in a separate report - Quality Assurance
             Standardsfor the IntegratedControlNetwork at the HanfordSite's Waste Treatment
             Plant(DOE/IG-0764, May 2007).
                                               Network Equipment

              The network equipment procured for the Plant was approved by Bechtel. The specific
              equipment referred to in the allegation involved spur blocks that distribute signal and
              power from a system process controller to numerous field devices. The spur block also
              serves as a surge protection device so if one device develops a short, it would prevent
              it from affecting other devices. Bechtel entered into a contract that required the
              subcontractor to provide a model spur block for testing within 30 days of signing the
              contract. At the time the contract was signed, Bechtel requested two modifications to
              the spur block: special labeling and an LED indicator light which could be visible
              without opening the spur block case. Both modifications were cosmetic and did not
               affect the function of the spur block. Because the subcontractor could not make the
              modifications within 30 days it supplied Bechtel with an unapproved model for
               interim testing. This test model gave rise to the allegation. However, since the
               unapproved model lacked only cosmetic changes and had the same functionality as the
               model approved by Bechtel, we concluded that using the unapproved spur block for
               testing was reasonable. Ultimately, procured spur blocks included the cosmetic
               changes and were approved by Bechtel for use in the Plant.

                                                 Valve Equipment

              The valve equipment tested for the Plant was not prototype, rather, it had been on the
              commercial market since 1999 and tested and certified by a number of organizations.
              Although Bechtel had not required documentation to be submitted for the valve, the
              supplier provided software files that contained sufficient information and
              documentation for the testing performed by Bechtel. Additionally, Bechtel required
              that the valve being tested be registered with a recognized industry organization.
              Finally, the valve assembly had two fail safe features, one feature for.loss of
              signal/power and another for loss of operating air. Both features were part of the
               device provided to Bechtel for testing and had been satisfactorily tested before
              delivery. At the time of our review, Bechtel was still testing the valve equipment.




                                                  2
                                                     OIG                            4-*-   HQ               Q[003
05/31/07   THU 18:21 FAX 865 241 3897




                                                  Control System

                                                    substantiate were that the selected subcontractor
             Among the allegations we could not
                                                          supplier, the control system was
             for the control system was a substandard
                                                          locked up, and the selection of a different
             unacceptable for use since it consistently
                                                               savings. in fact, we found that Bechtel
              subcontractor could result in substantial cost
                                                              In 2005, the supplier was rated in the top
              had contracted with a highly rated supplier.
                                                        instrumentation and controls both nationally
              10 by industry publications for process
              and internationally.
                                                                 that the control system was unacceptable
              .Also, we could not substantiate the allegation
                                                                  properly due to a significant number of
              for use in the Plant because it did not function
                                                                                      laboratory. We
              lock-ups during testing in Bechtel's Controls and Instrumentation
                                                             computer lock-ups     would  not be
               confirmed with control system experts that
                                                                         and that lock-ups resulted from
               uncommon during the phase of system development by a lack of air flow. Bechtel's Controls
               computer overheating believed to be caused of actions, including replacing a
               and Instrumentation personnel took a number
                                                               the lock-up problems.
               defective laptop computer, which corrected

                                                           the selection of a different control system
              Finally, we were unable to validate whether
                                                        cost savings. Our review of the procurement
              subcontractor would result in substantial
                                                                   the allegation.
              file did not provide any information that supported

               SCOPE AND METHODOLOGY
                                                                        at the Hanford Site in
               The audit was conducted from April 2006 to May 2007,
                                                               covered allegations related to the Plant.
               Richland, Washington. The scope of the audit
                                                                      made regarding work at the
               To accomplish this audit, we reviewed the allegations
                                                                            allegations. Further, we
               Plant and reviewed and analyzed information related to the
                                                                procedures, and interviewed
               reviewed related laws, regulations, policies and
                                                                        in areas related to the
               Department and Bechtel personnel with responsibilities
               allegations.
                                                                        accepted Government auditing
               We conducted the audit in accordance with generally
                                                                tests of internal controls and
               standards for performance audits and included
                                                         the extent necessary to satisfy the audit
               compliance with laws and regulations to
                                                                       under the Government
               objective. We assessed internal controls established,
                                                               to the Office  of River Protection's Waste
               Performance and Results Act of 1993 related
                                                                    review was limited, it would not
               Treatment Plant af the Hanford Site. Because our
                                                                deficiencies that may have existed at the
               necessarily have disclosed all internal control
                                                                                 on computer processed
               time of our audit. We did not conduct reliability assessments
                                                                              data was used during the
                data because only a limited amount of computer processed
                audit.

                Management waived the exit conference.




                                                      3
05/31/07   THU 18:21 FAX 865 241 3897                OIG                        --    HQ         ID004




             We appreciate the cooperation of your staff during our review, Because no formal
             recommendations are being made in this report, a formal response is not required.




                                                  Fredrick . Pieper, Director
                                             '    Energy, Science and Environmental
                                                 SAudits Division
                                                  Office of Inspector General

             cc:    Deputy Secretary
                    Chief of Staff
                    Team Leader, Audit Liaison Team, CF-1.2
                    Audit Liaison, Office of River Protection




                                                 4
